I
                                             NATIONAL SCIENCE FOUNDATION
                                              OFFICE OF INSPECTOR GENERAL
1                                               OFFICE OF INVESTIGATIONS

                                        CLOSEOUT MEMORANDUM




                                                                             '
    We assessed an allegation of intellectual property theft in the Subject's NSF proposal.2 It was
    alleged that the NSF proposal is substantially similar to a joint proposal submitted earlier.3 We
    determined that there was a substantial overlap in the proposals, and wrote an inquiry letter to the
     Subject. The Subject traced the proposals to his own earlier CAREER proposal; the overlap
    between them was confirmed. Subject states that the participation of a second individual for a
    joint proposal was solicited. But when this proposal was declined, the Subject removed the
    added materials and concordant references, and updated his own references, and resubmitted the
    proposal on his own. Our examination of the proposals does not support the allegation of
    intellectual property theft.

    Accordingly, this case is closed.




    1
        Redacted.
        Redacted.
        Redacted.
